<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 .                                      
                                       ENERGY AND WATER DEVELOPMENT 
                                         APPROPRIATIONS FOR 2016 

                                          
                   ============================================================================
                                                 HEARINGS 

                                                 BEFORE A 
                                                 
                                            SUBCOMMITTEE OF THE 
                                            
                                        COMMITTEE ON APPROPRIATIONS 
                                        
                                         HOUSE OF REPRESENTATIVES 

                                         
                                       ONE HUNDRED FOURTEENTH CONGRESS 
                                       
                                                FIRST SESSION 

                                                _____________ 
                                                 
                                SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT

                                    MICHAEL K. SIMPSON, Idaho, Chairman 
                                 
                          RODNEY P. FRELINGHUYSEN, New Jersey   MARCY KAPTUR, Ohio
                          KEN CALVERT, California               PETER J. VISCLOSKY, Indiana
                          CHARLES J. FLEISCHMANN, Tennessee     MICHAEL M. HONDA, California 
                          JEFF FORTENBERRY, Nebraska            LUCILLE ROYBAL-ALLARD, California
                          KAY GRANGER, Texas 
                          JAIME HERRERA BEUTLER, Washington
                          DAVID G. VALADAO, California 
                          

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full Committee, and Mrs. Lowey, as Ranking
   Minority Member of the Full Committee, are authorized to sit as Members of all Subcommittees. 
   
                          DONNA SHAHBAZ, ANGIE GIANCARLO, LORAINE HECKENBERG, 
                                   PERRY YATES, and MATTHEW ANDERSON 

                                        Staff Assistants 
                                          ____________
                                          
                                            PART 9 
                                             
                                           WITNESSES 
                                           
                                           
                            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
                                         _____________
                                           

                       Printed for the use of the Committee on Appropriations 
                                          ____________
                           
                              U.S. GOVERNMENT PUBLISHING OFFICE
                             
     96-118                             WASHINGTON : 2015 


[NO TEXT AVAILABLE]
</pre></body></html>
